                                                 AUDIT




            U.S. FISH AND WILDLIFE SERVICE
         WILDLIFE AND SPORT FISH RESTORATION
         PROGRAM GRANTS AWARDED TO THE:

           COMMONWEALTH OF VIRGINIA,
     DEPARTMENT OF GAME AND INLAND FISHERIES,

           JULY 1, 2007, THROUGH JUNE 30, 2009




Report No.: R-GR-FWS-0004-2010                   May 2010
                                                                                        May 24, 2010

                                         AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the Commonwealth of Virginia, Department of Game and Inland
           Fisheries, From July 1, 2007, Through June 30, 2009 (No. R-GR-FWS-0004-2010)

        This report presents the results of our audit of costs claimed by the Commonwealth of
Virginia (the Commonwealth), Department of Game and Inland Fisheries (the Department),
under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to
the Commonwealth under the Wildlife and Sport Fish Restoration Program (the Program). The
audit included claims totaling approximately $43 million on 19 grants that were open during
Commonwealth fiscal years (CFYs) ended June 30 of 2008 and 2009 (see Appendix 1). The
audit also covered Department’s compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements; however, its land records have not been reconciled with FWS.

        We provided a draft report to FWS for a response. We summarized FWS Region 5
response to the recommendation, as well as our comments on the response. We list the status of
the recommendation in Appendix 3.

       Please respond in writing to the finding and recommendation included in this report by
August 23, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191


                          Office of Audits, Inspections, and Evaluations | Reston, VA
      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski, or me at 703–487–5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
                                                     Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (the Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, Federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with the Acts and
            related regulations, FWS guidelines, and the grant agreements.
       •    Used the Commonwealth’s hunting and fishing license revenues solely for fish and
            wildlife program activities.
       •    Reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $43 million on the 19 grants that were open
during CFYs 2008 and 2009 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in Richmond, VA,
and visited one regional office, two field offices, two wildlife management areas, one fish
hatchery, one boating access area, and one work center (see Appendix 2). We performed this
audit to supplement, not replace, the audits required by the Single Audit Act Amendments of
1996 and by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          3
Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the grants by the
       Department.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income.
   •   Interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department.
   •   Determining whether the Commonwealth passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to the
total population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
the Department’s operations.

Prior Audit Coverage
On July 13, 2006, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the Commonwealth of Virginia, Department of Game and
Inland Fisheries, from July 1, 2002, through June 30, 2004” (No. R-GR-FWS-0021-2005). We
followed up on six recommendations in the report and found that the U.S. Department of the
Interior, Office of Assistant Secretary for Policy, Management, and Budget considered them
resolved and implemented.

We also reviewed the Commonwealth of Virginia’s Single Audit Reports and Comprehensive
Annual Financial Reports for CFYs ending on June 30, 2007 and 2008. These reports did not
identify the Department’s Wildlife and Sport Fish Restoration Programs as major programs and
did not contain any findings that would directly impact the Program grants. Furthermore, on
September 17, 2009, the Virginia Auditor of Public Accounts issued a performance audit, which
noted that the Department properly stated the amounts recorded and reported in the
Commonwealth Accounting and Reporting System.




                                                  4
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified one
condition that resulted in the finding listed below. We discuss the finding in more detail in the
Finding and Recommendation section.

       Unreconciled Real Property Records. We found discrepancies between the
       Department’s and FWS’ land records because the records had not been reconciled.

Finding and Recommendation

A.     Unreconciled Real Property Records

       The Department and FWS each maintain records on lands purchased with Program funds;
       however, these two sets of records show significant differences. The Department’s land
       inventory identified 99,075 acres, while FWS records showed only 84,846 acres
       purchased with Program funds.

       According to 50 CFR § 80.18 and 522 FW 1.15, each State is required to maintain
       accountability and control of all assets to assure that they are used for the purpose for
       which acquired throughout their useful life. The FWS Director reiterated land
       management requirements to Program participants in a March 29, 2007 letter. This letter
       requested each State to maintain a real property management system that includes a
       comprehensive inventory of lands and to ensure that its inventory is accurate and
       complete.

       Department and FWS officials acknowledged that they had not reconciled the respective
       land inventories to determine their accuracy and completeness. As a result, the
       Department’s land records are not adequate to ensure that lands acquired with Program
       funds are used only for their originally intended purposes.

       Recommendation

       We recommend that FWS reconcile its real property records with the Department.

       Department Response

       The Department did not respond to the draft report.

       FWS Response

       FWS Regional officials concurred with the finding and recommendation.

                                                5
OIG Comments

Based on FWS response, additional information is needed in the corrective action plan,
including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or planned.
   •   Verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                        6
                                                    Appendix 1


            COMMONWEALTH OF VIRGINIA
     DEPARTMENT OF GAME AND INLAND FISHERIES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2007, THROUGH JUNE 30, 2009


Grant Number     Grant Amount       Claimed Cost
F-105-D-41          $1,079,464         $1,079,464
F-105-D-42             437,200             50,723
F-107-D-16           5,535,000          1,570,160
F-109-D-16           7,296,000          3,370,085
F-111-R-16          11,223,000          4,741,977
F-123-R-6              224,000            216,197
F-123-R-7              210,000            138,371
F-128-R-3               18,988             18,988
F-129-R-3               75,123             75,123
F-131-D-1           12,552,739         12,380,952
W-31-C-60              399,000            345,684
W-31-C-61            2,500,000            310,544
W-48-D-49            3,079,836          2,337,690
W-48-D-50           11,813,184          2,543,753
W-87-E-6             1,110,620          1,167,983
W-87-E-7             5,160,000            712,291
W-88-L-1             6,085,000          6,085,000
WE-99-R-17           3,672,466          3,119,284
WE-99-R-18          25,207,873          2,701,525
     Total         $97,679,493        $42,965,794




                        7
                                          Appendix 2


      COMMONWEALTH OF VIRGINIA
DEPARTMENT OF GAME AND INLAND FISHERIES
             SITES VISITED

              Headquarters
               Richmond

             Regional Office
             Region 4, Verona

               Field Offices
                Chesapeake
                 Farmville

       Wildlife Management Areas
                 Cavalier
                Featherfin

              Fish Hatchery
       Coursey Springs Fish Hatchery

           Boating Access Area
           Franklin Boat Access

              Work Center
         Buffalo Gap Work Center




                    8
                                                                                 Appendix 3


                             COMMONWEALTH OF VIRGINIA
                       DEPARTMENT OF GAME AND INLAND FISHERIES
                     STATUS OF AUDIT FINDING AND RECOMMENDATION


    Recommendation                   Status                       Action Required
A                       FWS management concurs         Additional information is needed in
                        with the recommendation, but   the corrective action plan, including
                        additional information is      the actions taken or planned to
                        needed as outlined in the      implement the recommendation,
                        “Actions Required” column.     targeted completion date(s), the title
                                                       of official(s) responsible for
                                                       implementation, and verification that
                                                       FWS officials reviewed and
                                                       approved of actions taken or planned
                                                       by the State. We will refer the
                                                       recommendation not resolved and/or
                                                       implemented at the end of 90 days
                                                       (after August 23, 2010) to the
                                                       Assistant Secretary for Policy,
                                                       Management and Budget for
                                                       resolution and/or tracking of
                                                       implementation.




                                            9
How to Report Fraud, Waste, Abuse, and Mismanagement

Fraud, waste, abuse, and mismanagement in government are the concern of everyone, Office of
Inspector General staff, departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to departmental or Insular Area
programs and operations. You can report allegations to us by:



Mail:           U.S. Department of the Interior
                Office of Inspector General
                Mail Stop 4428-MIB
                1849 C Street, NW
                Washington, DC 20240


Phone:          (800) 424-5081 24-hour toll-free
                (703) 487-5435 Washington D.C. metropolitan area
                (703) 487-5402 Fax


Internet:       http://www.doioig.gov
